Report No. DODIG-2012-118                  August 14, 2012




     Defense Finance and Accounting Service Needs to
     Strengthen Procedures to Comply with the Federal
          Financial Management Improvement Act
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit at auditnet@dodig.mil.




Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing auditnet@dodig.mil, or by mail:

                       Department of Defense Office of Inspector General
                       Office of the Deputy Inspector General for Auditing
                       ATTN: Audit Suggestions/13F25-04
                       4800 Mark Center Drive
                       Alexandria, VA 22350-1500




Acronyms and Abbreviations
DCPS                          Defense Civilian and Pay System
DFAS                          Defense Finance and Accounting Service
FFMIA                         Federal Financial Management Improvement Act
GSA                           General Services Administration
IG                            Inspector General
I&T                           Information and Technology
MOA                           Memorandum of Agreement
OIG                           Office of Inspector General
PIO                           Performance Improvement Opportunity
PKI                           Public Key Infrastructure
SAS 70                        Statement of Auditing Standards Number 70
                                 INSPECTOR GENERAL 

                                DEPARTMENT OF DEFENSE 

                                4800 MARK CENTER DRIVE 

                             ALEXANDRIA, VIRGINIA 22350-1500 


                                                                            August 14,2012

MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
          SERVICE

SUBJECT: Defense Finance and Accounting Service Needs to Strengthen Procedures to
Comply with the Federal Financial Management Improvement Act (Report No. D-2012-118)

We are providing this report for your information and use. The Defense Finance and
Accounting Service needs to assess the Defense Civilian Pay System's compliance with
applicable Federal Financial Management Improvement Act requirements and secure access
to two payroll offices at Indianapolis, Indiana, that process sensitive payroll information.

We considered management comments provided by the Director, Information and
Technology on behalf of the Dh·ector, Defense Finance and Accounting Service on the draft
of this report when prepari11g the final repmt. The Director, Information and Technology
comments conformed to the requirements of DoD Dh·ective 7650.3; therefore, additional
comments are not required.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5945 (DSN 329-5945).




                                              J~t.V~
                                              LorinT. Venable, CPA
                                               Acting Assistant Inspector General
                                               DoD Payments and Accounting Operations
Report No. D-2012-118 (Project No. D2011-D000FB-0116.001)                          August 14, 2012
	


               Results in Brief: Defense Finance and
               Accounting Service Needs to Strengthen
               Procedures to Comply with the Federal
               Financial Management Improvement Act

What We Did                                                 What We Recommend
We determined whether physical security over                We recommend the Director, DFAS, consult the
Defense Civilian Pay System (DCPS) data was                 “DFAS Financial Management Systems
adequate and whether DCPS complied with the                 Requirements Manual” to:
requirements of the Federal Financial                           identify the requirements that apply to
Management Improvement Act (FFMIA).                                DCPS,
                                                                determine which ones DCPS cannot
What We Found                                                      perform, and
The Defense Finance and Accounting Service                      develop a remediation plan to address
(DFAS) did not perform annual or complete                          deficiencies.
self-assessments on DCPS to determine FFMIA
compliance and did not develop a remediation                Management Comments and
plan to address requirements that DCPS did not              Our Response
meet. This occurred because DFAS officials
                                                            The Director, Information and Technology
were waiting on additional DoD guidance
                                                            responded for the Director, DFAS. He
before pursuing FFMIA compliance further.
                                                            concurred and stated that the DCPS
Systems that do not comply with FFMIA
                                                            system/functional managers will conduct a self-
requirements restrict the ability of organizations
                                                            assessment and identify applicable
to consistently and accurately record the assets,
                                                            requirements. If the self-assessment finds
liabilities, revenues, expenses, and the full costs
                                                            DCPS not compliant, the system manager will
of programs and activities of the Federal
                                                            identify required corrective actions and develop
Government.
                                                            a remediation plan to bring DCPS into
                                                            substantial compliance. The Director,
DFAS Officials did not secure two of four
                                                            Information and Technology, comments were
Civilian Pay Operations locations at
                                                            responsive and no additional comments are
Indianapolis with cipher locks. This occurred
                                                            required. Please see the recommendations table
because DFAS had not completed required
                                                            on the back of this page.
actions with the General Services
Administration to secure the locations. Without
adequate controls over physical access,
individuals could gain unauthorized access to
computers and sensitive payroll data contained
in online files and hardcopy printouts.

During the audit, DFAS Indianapolis funded a
new access control project that will establish
lockable space and eliminate access concerns.
DFAS Indianapolis expected to complete the
project by the end of FY 2012.

                                                      i
	
Report No. D-2012-118 (Project No. D2011-D000FB-0116.001)              August 14, 2012

Recommendations Table

        Management                 Recommendations          No Additional Comments
                                   Require Comment                 Required

Director, Defense Finance and                               A.1.a, A.1.b, A.2
Accounting Service




                                          ii
	
Table of Contents

Introduction                                                             1
	
      Objectives                                                         1
	
      Background                                                         2
	
      Other Matters of Interest                                          2
	
      Review of Internal Controls                                        2
	

Finding A. Assessing Federal Financial Management

Improvement Act Compliance                                               3
	
      Federal Financial Systems Requirements                             3
	
      Federal Financial Management Improvement Act Compliance

               for the Defense Civilian Pay System Needed Improvement    4
	
      Efforts to Determine Compliance                                    6
	
      Conclusion                                                         6
	
      Recommendations                                                    7
	

Finding B. Physical Access Controls                                      8
	
      Information Assurance                                              8
	
      Physical Access Controls at Defense Finance and 

          Accounting Service, Indianapolis Needed Improvement            8
	
      Management Actions                                                 9
	

Appendices
     A. 	Scope and Methodology                                          10
	
            Prior Coverage                                              10
	
     B. Performance Improvement Opportunities		                         12
	
     C. Status of Prior Year Findings		                                 13
	

Glossary	                                                               19
	

Management Comments

      Defense Finance and Accounting Service		                          20 

Introduction
Objectives
The overall audit objectives were to determine whether the Defense Civilian Pay
System’s (DCPS) general and application controls were adequately designed and
effective to produce reliable data and whether the DCPS substantially complied with the
Federal Financial Management Improvement Act of 1996 (Public Law 104-208)
requirements and other applicable Federal and DoD information technology and
information assurance policies. Appendix A discusses the audit scope and methodology,
as well as prior audit coverage related to the audit.

This report supplements DoD Office of Inspector General Report No. D-2011-085,
“Defense Civilian Pay System Controls Placed in Operation and Tests of Operating
Effectiveness for the Period From October 1, 2010, Through April 30, 2011,” July 15,
2011. The previous report concluded that controls were operating with sufficient
effectiveness to provide reasonable, but not absolute assurance that DFAS officials
achieved the following control objectives during the period from October 1, 2010 to
April 30, 2011:

   	 An enterprise-wide security program was established, approved by management,
      monitored and tested, and maintained.

   	 Risk assessments were performed in accordance with applicable Federal and DoD
      requirements, and management reviews; and addressed risks as deemed
      appropriate by management.

   	 Management monitored compliance with policies and procedures and addressed
      instances of noncompliance.

   	 Management reviewed and authorized the hiring of and periodically evaluated
      employees with information assurance duties (staff), and out-processed
      terminated staff in accordance with applicable Federal and DoD requirements,
      and staff understood their documented duties.

   	 Management authorized, tested, approved, documented, and properly 

      implemented changes to DCPS in accordance with management’s defined 

      requirements.
	

   	 Logical access to the DCPS application was granted to properly authorized
      individuals.

   	 DCPS computer processing was authorized and scheduled, and deviations from
      scheduled processing were identified and resolved.


                                           1
	
   	 Personnel and payroll data transmitted to and from interfacing systems were
      transferred completely, accurately, and timely.

   	 Input data were authorized and were entered in DCPS completely and accurately.

   	 Personnel and payroll data processed and stored at DFAS and DCPS locations
      were authorized, complete, accurate, and timely processed, and the results of
      processing were recorded in audit trails.

   	 Output files were complete, accurate, and distributed in accordance with client
      specifications.
This report addresses whether DCPS complied with the Federal Financial Management
Improvement Act (FFMIA) and whether physical security over DCPS data was adequate.

Background
The Defense Civilian Pay System (DCPS) processes pay for approximately 1.2 million
employees, in accordance with existing regulatory, statutory, and financial information
requirements related to civilian pay entitlements and applicable policies and procedures.
DCPS pays all DoD civilian employees except local nationals, civilian mariners, and
those supported by nonappropriated funds. In 1998, DCPS also began to pay personnel
of the Executive Office of the President. As part of the 2001 President’s Management
Agenda e-Payroll Initiative, DCPS now processes payroll for the Departments of Energy,
Veterans Affairs, and Health and Human Services; the Environmental Protection Agency;
and the Broadcast Board of Governors. From a life-cycle perspective, DCPS is in the
maintenance phase; its system changes are usually limited to legislative and functional
requirements.

Other Matters of Interest
During the audit, we identified Performance Improvement Opportunities (PIOs) that do
not require formal recommendations (Appendix B). In addition, Appendix C provides a
status of all prior findings and recommendations associated with DCPS over the last five
years.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,” July 29,
2010, requires DoD organizations to implement a comprehensive system of internal
controls that provides reasonable assurance that programs are operating as intended and
to evaluate the effectiveness of the controls. DFAS did not have the following internal
controls for regulatory compliance and information: a self-assessment and remediation
process for FFMIA compliance, and physical security over sensitive information. We
will provide a copy of the report to the senior official for internal controls at the Defense
Financial and Accounting Service.




                                              2
	
Finding A. Assessing Federal Financial
Management Improvement Act Compliance
DFAS officials did not comply with the FFMIA, as it relates to DCPS. Specifically,
DFAS officials did not perform annual or complete self-assessments on DCPS to
determine FFMIA compliance and did not develop a remediation plan to address
requirements not met by DCPS. This occurred because DFAS officials were waiting on
additional DoD guidance before pursuing FFMIA compliance further. Systems that do
not comply with FFMIA requirements restrict the ability of organizations to consistently
and accurately record the assets, liabilities, revenues, expenses, and the full costs of
programs and activities of the Federal Government.

Federal Financial Systems Requirements
In 1996, Congress enacted the FFMIA (Public Law 104-208), which requires each
agency to implement and maintain financial management systems that comply
substantially with Federal financial management systems requirements, applicable
Federal accounting standards, and the United States Government Standard General
Ledger at the transaction level.

Office of Management and Budget Circular No. A-127, “Financial Management
Systems,” January 9, 2009, implemented the FFMIA. The Circular requires that agencies
perform an annual review of their financial management systems to verify compliance
with computer security and internal controls. If agencies do not use a system certified by
the Financial Systems Integration Office, then the agencies may also be required to
perform self-assessments of their core financial system. In addition, agencies must
prepare a plan for their financial management systems that:

   	 describes the existing financial management system architecture, and any changes
      needed to implement a targeted architecture, and
   	 identifies projects necessary to achieve FFMIA substantial compliance within
      three years from the date of noncompliance.

DFAS’s “Financial Management Systems Requirements Manual,” (more commonly
known as the Blue Book) is a comprehensive compilation of Federal and DoD financial
management system requirements, as mandated by FFMIA. The requirements in the
Blue Book document are applicable to accounting and finance systems operated and
maintained by DFAS as well as “feeder” systems owned by the Military Services and
DoD Components. The manual outlines specific requirements that DoD systems must
satisfy to meet financial management requirements. The Blue Book identifies both the
specific requirement, as well as the authoritative source of the requirement, and assists
managers (who are responsible for financial management systems) in planning,
designing, enhancing, modifying, and implementing financial management systems.
Managers are ultimately responsible for being knowledgeable of and complying with the
various authoritative sources of financial requirements (both legislative and regulatory).

                                            3
	
Federal Financial Management Improvement Act
Compliance for the Defense Civilian Pay System Needed
Improvement
DFAS officials did not perform annual or complete self-assessments on DCPS to
determine FFMIA compliance and did not develop a remediation plan to address
requirements that DCPS did not meet.

Blue Book Requirements for DCPS Needed to be Reassessed
DFAS officials had not performed annual self-assessments to determine whether DCPS
was compliant with current Blue Book requirements. DFAS officials performed the most
                                      recent self-assessment in 2009. DCPS is an
   DFAS Officials performed the
                                      entitlement system that provides pay and leave
   most recent self-assessment in
                                      information to other financial systems to create
               2009.
                                      reports, reconcile balances, deposit funds, provide
information for core accounting systems to update their General Ledgers, and perform
cost analysis. DCPS is also the payroll system for 5 of the 24 Agencies subject to the
Chief Financial Officer’s Act. DCPS also feeds an additional nine DoD financial
statements required by the Office of Management and Budget. DFAS officials identified
three volumes in the Blue Book that applied to DCPS in 2009:

      Volume 2 – Financial Reporting
      Volume 7 – Personnel Pay
      Volume 14 – Audit Trails and System Controls

However, DFAS updated the Blue Book three times since 2009. The January and May
2011 Blue Book updates added six new requirements (Requirement Identification
Numbers 07.01.074, 07.06.086 through 07.06.089, and 07.08.006) to Volume 7 that
DFAS officials should have assessed to determine applicability. In addition, although
Volumes 2, 7, and 14 contained the majority of requirements applicable to DCPS, the
January 2011 update included a new requirement (Requirement Identification Number
01.02.017) in Volume 1 that was also relevant:

              The Standard Financial Information Structure [SFIS] is required for “all
              target and legacy business feeder systems that will interface with a
              target system, as identified in the Enterprise Transition Plan that
              support financial transactions.”




                                                 4
	
DCPS is a legacy business feeder system that will be part of DoD’s business enterprise
architecture. Accordingly, DCPS should be capable of feeding SFIS compliant data to
                                      agency systems that it supports (DoD and other
    A thorough review of current      federal agencies). Systems that do not comply
    Blue Book requirements will       with FFMIA requirements restrict the ability of
   enable DFAS officials to assess    organizations to consistently and accurately record
    whether DCPS substantially        the assets, liabilities, revenues, expenses, and the
       complies with FFMIA.           full costs of programs and activities of the Federal
                                      Government. A thorough review of current Blue
Book requirements will enable DFAS officials to assess whether DCPS substantially
complies with FFMIA.

DFAS Officials Needed to Update DCPS Self-Assessment
DFAS officials did not perform complete self-assessments. The 2009 self-assessment
indicated that DCPS was compliant with 82 of 94 system requirements. However, for
                                         five system requirements (Requirement
       … DFAS officials did not          Identification No. 14.01.01, 14.02.52, 14.02.54,
    determine whether DCPS was           14.02.55, and 14.04.09), DFAS officials did not
     compliant, not compliant, or        determine whether DCPS was compliant, not
    even whether the requirements        compliant, or even whether the requirements were
      were applicable to DCPS.           applicable to DCPS. For example, Requirement
                                         Identification No. 14.01.01 called for the system
to generate an audit trail of transactions recorded as a document moves from the source
through all document statuses. However, the self-assessment did not indicate whether
DCPS did or did not comply with the requirement.

In addition, the self-assessment indicated that DCPS did not meet the requirement to use
Public Key Infrastructure (PKI) certificates and biometrics for positive authentication
(Requirement Identification No. 14.04.04). However, DFAS officials did not prepare a
remediation plan that would address the non-compliance. The self-assessment stated that
DCPS was a legacy system that did not use PKI and that DCPS employed user ID,
password authentication, and regular monitoring, which are not substitutes for PKI.
DoD’s implementation of PKI uses two-factor authentication. Requiring two factors of
authentication – “something you know,” such as a Personal Identification Number and
“something you have,” such as a PKI-enabled Common Access Card – is called two-
factor authentication. Two-factor authentication is a proven method for decreasing
intrusions and other types of security breaches by ensuring that stolen user names and
passwords are insufficient to gain access to networks.

Lastly, the self-assessment indicated that DCPS complied with the requirement to
produce the reports and vouchers necessary to recognize payroll expenses, establish
related receivables, and disburse all related payments to produce supporting detail
registers or subsidiary ledgers (Requirement Identification No. 07.06.28). However, the
self-assessment stated that although DCPS produced an automated file to accomplish
disbursements and Treasury reporting, the file “[did] not meet all of the requirements that
the accounting systems [had] developed.” Consequently, DCPS may not have been fully

                                             5
	
compliant with the requirement. DFAS officials should reassess whether DCPS fully
meets this payroll system requirement.

FFMIA Compliance for DCPS Has Been a Long-Standing Issue
The DoD Inspector General (DoD OIG) issued three reports in prior years related to
problems with completing DCPS self-assessments. These reports demonstrate long-
standing difficulties that DFAS officials encountered while assessing DCPS compliance
with FFMIA:

   	 DoD OIG Report No. D2010-074, “Information Assurance Controls for the
      Defense Civilian Pay System for FY 2009,” August 2, 2010, stated that DCPS did
      not comply with FFMIA because DFAS did not test the mandatory requirements.
      During the audit, DFAS was still in the requirements analysis stage of the
      compliance process;
   	 DoD OIG Report No. D-2006-074, “Technical Report on the Defense Civilian
      Pay System General and Application Controls,” April 12, 2006, stated that the
      DCPS Systems Management Office did not assess compliance since FY 2000
      because they were waiting on direction from DFAS Headquarters; and
   	 DoD OIG Report No. D-2005-069, “Information System Security: Audit of the
      General and Application Controls of the Defense Civilian Pay System,” May 13,
      2005, concluded that the self-assessment had been completed using outdated
      guidance.

DFAS officials need to update the self-assessment using the current Blue Book
requirements and make a determination on whether DCPS is compliant with each
requirement that applies to the DCPS operating environment. Once the assessment is
updated and complete, DFAS officials should prepare a remediation plan for instances of
non-compliance.

Efforts to Determine Compliance
DFAS Information and Technology (I&T) personnel stated that they were waiting for
Department-wide guidance to implement remediation plans through DFAS participation
in DoD’s Financial Improvement Audit Readiness initiative. At a minimum, however,
DFAS officials needed to complete annual self-assessments and identify the projects
needed to achieve FFMIA substantial compliance within three years.

Conclusion
DCPS is the payroll system for 5 of the 24 Agencies subject to the Chief Financial
Officer’s Act. DCPS also feeds an additional nine DoD financial statements required by
the Office of Management and Budget. Systems that do not comply with FFMIA
requirements restrict the ability of organizations to consistently and accurately record the
assets, liabilities, revenues, expenses and the full costs of programs and activities of the
Federal Government.
                                             6
	
Recommendations, Management Comments and Our
Response
We recommend that the Director, Defense Finance and Accounting Service:

A.1. Perform an annual review of the Defense Civilian Pay System, as required by
Office of Management and Budget Circular No. A-127, to:

   a. Determine which Blue Book requirements apply to the Defense Civilian Pay
      System.
   b. Determine which of the Blue Book requirements that apply to the Defense
      Civilian Pay System, cannot be performed.

Defense Finance and Accounting Service Comments
The Director, I&T, responded for the Director, DFAS. He concurred and stated that the
DCPS system/functional managers will conduct a self-assessment and identify applicable
requirements. The Director, I&T indicated that the estimated completion date for the
self-assessment review is August 31, 2012.

Our Response
The Director, I&T, comments on Recommendations A.1.a and A.1.b were responsive,
and no additional comments are required.

A.2. Develop a remediation plan to address the requirements that Defense Civilian
Pay System cannot perform.

Director, Information and Technology Comments
The Director, I&T, concurred and indicated that if the self-assessment finds DCPS not
compliant, the system manager would identify required corrective actions and develop a
remediation plan to bring DCPS into substantial compliance. The Director, I&T,
indicated that the estimated completion date for developing a remediation plan is
September 30, 2012.

Our Response
The Director, I&T, comments were responsive, and no additional comments are required.




                                           7
	
Finding B. Physical Access Controls
DFAS Indianapolis personnel did not secure two of four Civilian Pay Operations
locations at Indianapolis with cipher locks. This occurred because DFAS Indianapolis
personnel had not completed required actions with the General Services Administration
(GSA) to secure the locations. Without adequate controls over physical access,
individuals could gain unauthorized access to computers and sensitive payroll data
contained in online files and hardcopy printouts.

Information Assurance
DoD Instruction 8500.2, “Information Assurance Implementation,” February 6, 2003,
implements the policies outlined in DoD Instruction 8500.1 by assigning responsibilities,
and prescribing procedures for applying integrated, layered protection of the DoD
information systems and networks. DoD Directive 8500.1 defines information assurance
as measures that protect and defend information and information systems by ensuring
their availability, integrity, authentication, confidentiality, and nonrepudiation. These
measures include providing for restoration of information systems by incorporating
protection, detection, and reaction capabilities. The instruction requires DoD to assess
information systems regularly for information assurance vulnerabilities and implement
appropriate solutions to eliminate or otherwise mitigate identified vulnerabilities.

Physical Access Controls at Defense Finance and
Accounting Service, Indianapolis, Needed Improvement
DFAS Indianapolis did not secure two of four Civilian Pay Operations locations with
cipher locks. DoD Instruction 8500.2 requires every physical access point to facilities
                                      housing workstations that process or display
      …office spaces at DFAS          sensitive information or unclassified information
       Indianapolis remained          that has not been cleared for release be controlled
     unsecured during our most        during working hours and guarded or locked
            recent audit.             during non-work hours. Although this deficiency
                                      was identified in two prior reports (D2009-001,
“Information Assurance Controls for the Defense Civilian Pay System,” dated October 7,
2008; and D2010-074, “Information Assurance Controls for the Defense Civilian Pay
System for FY 2009,” dated August 2, 2010), the office spaces at DFAS Indianapolis
remained unsecured during our most recent audit. Securing all locations with cipher
locks would reduce the risk that unauthorized individuals could:
      gain access to sensitive payroll data contained in hardcopy print outs and online
       files,
      obtain personally identifiable information for personal gain or introduce malicious
       code into DCPS, and
      obtain logical access to computer workstations used by Civilian Pay Operations
       employees to access DCPS.



                                            8
	
Management Actions
We recognize that the payroll offices in Indianapolis were located in a Federal building
and to install cipher locks required coordination between DFAS Indianapolis (the tenant)
                                         and GSA (the owner of the building with
    DFAS officials provided funds        responsibility for building maintenance). DFAS
       to GSA for a new Access           Indianapolis officials provided funds to GSA for a
       Control project that will         new Access Control project that will establish
    establish lockable space in all      lockable space in all areas and will consolidate
                 areas.                  Civilian Pay Operations to eliminate access
                                         concerns. DFAS Indianapolis expected to
complete the project by the end of FY 2012. DFAS Indianapolis officials also stated that
until the Access Control project is complete, Civilian Pay Operations has established
interim internal controls such as visitor logs, mandatory visitor escorts, and signage
stating “Authorized Personnel Only.” Because we believe the management actions
described above were sufficient, we made no recommendations associated with the
access control issues identified in this report.




                                             9
	
Appendix A. Scope and Methodology
We conducted this performance audit from January 2011 to May 2012, in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions, based on our audit objectives.

We assessed the design and operating effectiveness of the DCPS controls at three DFAS
organizations. We developed audit procedures to test DCPS general and application
controls using the Government Accountability Office Federal Information System
Controls Audit Manual methodology and procedures prescribed in DoD Instruction
8500.2. In addition, we separated audit procedures into the following areas:

   	 General Computer Controls. These controls include the structure, policies, and
      procedures that apply to an entity’s overall computer operations. General
      computer controls consist of entity-wide security management, access controls,
      configuration management, and segregation of duties.
   	 Application Controls. These controls directly relate to individual applications
      and are designed to ensure that transactions are valid, properly authorized, and
      completely and accurately processed and reported. Application controls include
      programmed control techniques, such as automated edits, and manual follow-up
      of computer-generated reports, such as reviews of reports identifying rejected or
      unusual items.
We interviewed personnel at DFAS I&T in Indianapolis, Indiana, and DFAS payroll
offices in Cleveland, Ohio, and Indianapolis, Indiana. We reviewed general and
application controls in place only at DFAS organizations. We did not review application
controls at any other payroll office or customer organization.
We did not review general controls performed by the Defense Information Systems
Agency that provided direct or indirect administration and support of the operating
environment used to host DCPS.
We did not test controls covering the originating systems that interface with DCPS.
Controls at DCPS customer organizations were not included within the scope of this
audit.

Use of Computer-Processed Data
We did not rely on computer-processed data to perform this audit.

Prior Coverage
During the last 5 years, the DoD IG has issued 6 reports discussing DCPS general and
application controls. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.


                                           10
	
DoD IG Report No. D-2011-085 “Defense Civilian Pay System Controls Placed in
Operation and Tests of Operating Effectiveness for the Period From October 1, 2010,
Through April 30, 2011,” July 15, 2011
DoD IG Report No. D-2010-074, “Information Assurance Controls for the Defense
Civilian Pay System for FY 2009,” August 2, 2010
DoD IG Report No. D-2010-071 “Defense Civilian Pay System Controls Placed in
Operation and Tests of Operating Effectiveness for the Period From October 1, 2009,
Through April 30, 2010,” July 2, 2010
DoD IG Report No. D-2009-119, “Defense Civilian Pay System Controls Placed in
Operation and Tests of Operating Effectiveness for the Period From October 1, 2008,
Through June 30, 2009,” September, 30, 2009
DoD IG Report No. D-2009-001, “Information Assurance Controls for the Defense
Civilian Pay System,” October 7, 2008
DoD IG Report No. D-2007-096, “Information Assurance Controls for the Defense
Civilian Pay System,” May 14, 2007




                                          11
	
Appendix B. Performance Improvement
Opportunities
We identified several PIOs during our review of DCPS. Implementation of these
opportunities would allow DFAS to strengthen existing procedures and operational
practices and gain additional process efficiencies. These observations are PIOs and we
will not issue formal recommendations to DFAS.

Formal Termination and Transfer Account Deletion
Procedures
DFAS Cleveland lacked formal termination and transfer procedures that established
responsibilities and timeframes for terminating the access of Civilian Pay employees who
leave or transfer from Civilian Pay. Although communication did occur between Human
Resources and Civilian Pay, formalized procedures would help ensure that DFAS
personnel timely and consistently remove access from all terminated and transferred
employees.

DCPS Listing of Edit Checks
DFAS I&T DCPS system documentation contained a listing of application edits that
included an outdated edit check no longer used by DCPS in the production environment.
By maintaining a current listing of DCPS edit checks, DFAS I&T management would be
better equipped to manage DCPS in an effective and efficient manner. Although there
are no requirements, DFAS management should consider updating and maintaining
DCPS system documentation to include a current listing of all DCPS edit checks.

592 Balancing Instructions
DFAS management had not updated DFAS 592 Balancing Instructions to include the
supervisory review procedures, and the signatures and dates that were included on the
592 Reconciliations. Up-to-date 592 Balancing Instructions would help ensure that
supervisors properly review, sign, and date the 592 Reconciliations. Although there are
no requirements, DFAS management should consider updating and maintaining the
592 Balancing Instructions to include the supervisory review procedures and the
signatures and dates that were included on the 592 Reconciliations.




                                           12
	
Appendix C. Status of Prior Year Findings
The following table describes the status of all prior year findings that were open as of the initiation of the current year’s audit.

 Original
Fiscal Year
                Recommendation                                                              Open/
  Finding                                           Finding Description                                              Management Response
                   Number1                                                                  Closed
   Was
 Reported
                                      DFAS Standards and Compliance Division,                          Management agreed with the exception in theory
                                      which is responsible for monitoring control                      but provided clarity that DFAS tracks ONLY to
                                      weaknesses and process issues identified in audits               recommendations that are included in a technical
                                      and self-assessments, did not track audit issues                 report for SAS 70 and the same is applied for all
                                      identified during the prior-year SAS 70 audit.                   other audits internal and external. To remediate this
    2010               N/A                                                                  Closed
                                                                                                       exception, management will ensure going forward
                                                                                                       that we track to the draft SAS 70 report on issuance.
                                                                                                       Additionally, management believes this is an
                                                                                                       isolated incident and the control is working as
                                                                                                       intended.

                                      DFAS Human Resources could not provide an                        Management agreed with the exception, but in order
                                      Out-Processing Checklist for one of two                          to remediate this exception, management will work
                                      employees who separated from DFAS Cleveland                      with DFAS Human Resources to ensure we have a
    2010               N/A                                                                  Closed
                                      during the examination period.                                   defined process for ensuring all Out-Processing
                                                                                                       Checklists, both online and manual, are retained for
                                                                                                       separated employees.

                                      DFAS Saufley2 did not sufficiently evidence the                  Management agreed that additional follow-up is
    2010               N/A            follow-up for 6 of 35 database or interface file      Closed     needed. The standard operating procedures for the
                                      data changes that were identified as unsupported                 Data Manipulation Language Online audit are being
                                      by a valid change request during database and                    updated to include this additional level of review.



1
  Findings marked as ‘Not Applicable’ (N/A) were exclusively reported in prior year Statement on Auditing Standards No. 70 (SAS 70) and, as such, did not
include a corresponding recommendation
2
  I&T organizations that administered DCPS were located at Saufley Field in Pensacola, Florida, prior to their move to Indianapolis, Indiana during the period
October through December 2010. These organizations were commonly referenced within prior year audit reports as “DFAS Saufley.”

                                                                               13
	
 Original
Fiscal Year
              Recommendation                                                        Open/
  Finding                                    Finding Description                                           Management Response
                 Number1                                                            Closed
   Was
 Reported
                               interface file change reviews performed for the               That update will include a reconciliation of the
                               months of October, November, and December                     supervisor’s comments to ensure every entry has
                               2009 and January 2010.                                        been addressed and the action taken.

                               DFAS Saufley did not ensure that all parties that             Management agreed with the finding. DFAS
                               are required to sign the DD 2875 user access                  Saufley created a new DD 2875 as soon as the
                               form also annotated the date that they signed the             employee returned to work.
   2010            N/A                                                              Closed
                               form, as required. Specifically, for 1 of 36
                               sampled DCPS users, the information owner did
                               not annotate the date that he/she signed the form.

                               DFAS Saufley had implemented a privileged user                Management agreed with the finding. Based on last
                               access recertification process that does not                  year's audit report, DFAS took action to improve
                               require supervisors to evidence the specific user             this review process by capturing and enforcing
                               account(s) that they are recertifying.                        responses from management; however, the current
   2010            N/A                                                              Closed
                               Additionally, DFAS Saufley had not                            process does include the formal review of user
                               implemented a process to validate that it                     identifications and their associated access.
                               periodically recertified each privileged user
                               account.

                               DFAS Indianapolis used a manually maintained                  Management agreed that this is not a system-
                               list of users to perform supervisory reviews of               generated list. This is a quarterly review and not a
                               Civilian Pay employees with access to DCPS                    requirement or mandate. This is an additional
   2010            N/A                                                              Closed
                               rather than system-generated user access listings.            control to the monthly DCPS audit reviews that the
                                                                                             Indianapolis Payroll Office instituted, because of
                                                                                             last year's SAS 70 report.




                                                                        14
	
 Original
Fiscal Year
                Recommendation                                                                 Open/
  Finding                                            Finding Description                                              Management Response
                   Number1                                                                     Closed
   Was
 Reported
                                      DFAS Saufley has not consistently documented                      Management agreed with the exception in that
                                      Memorandums of Agreement (MOAs) with                              MOAs are not consistently documented to identify
                                      customers to include the interface file type and                  the transmission type and the frequency of files sent
                                      frequency of files sent and received. Specifically,               and received. To remediate this exception,
                                      of 28 customer MOAs inspected:                                    management is in the process of updating the
    2010               N/A                                                                     Open3    MOAs.
                                         4 did not identify the frequency of files sent
                                          and received, and
                                         2 contained signatures obtained more than 3
                                          years ago, thus rending the MOAs expired.

                                      DFAS Saufley could not provide a consolidated                     The DCPS Interface Specification is a 1,100+ page
                                      listing of all of the data transmission                           consolidated view of all user data formatting
                                      completeness edit checks required by the service                  requirements for the 100+ types of DCPS interfaces
                                      auditor in order to test the suitability of the design            and is systematically updated, as a DCPS
                                      of the edit checks. As a result, the service auditor              configured item with every quarterly release. "Edits
                                      could not test the design or operating                            and validations" as defined by the audit team are at
                                      effectiveness of the data transmission                            a level of detail beyond the existing DCPS Interface
                                      completeness edit checks or the corresponding                     Specification. Based on estimates of the scope of
    2010               N/A            reviews performed by personnel at DFAS Saufley           Closed   the task and level of effort, management determined
                                      that rely on the outputs of the edit checks.                      that defining all completeness checks and program
                                                                                                        edits/validations for 100+ interfaces for a very large
                                                                                                        system such as DCPS - with often multiple pre-
                                                                                                        processing and post-processing steps - has been cost
                                                                                                        prohibitive. This year’s audit did, however, address
                                                                                                        testing of 20+ file completeness edits for 2 of the
                                                                                                        most critical DCPS interfaces – Source Data
                                                                                                        Automation and Personnel Data System - with no


3
  In our most recent report (DoD IG Report No. D-2011-085, Defense Civilian Pay System Controls Placed in Operation and Tests of Operating Effectiveness for
the Period October 1, 2010 through April 30, 2011) we noted that this finding was still open. Of 27 MOAs selected for testing, one did not identify the
transmission type of the files sent and/or received, three did not identify the frequency of files sent and received, and four contained signatures obtained more
than three years ago.

                                                                                  15
 Original
Fiscal Year
              Recommendation                                                         Open/
  Finding                                    Finding Description                                            Management Response
                 Number1                                                             Closed
   Was
 Reported
                                                                                              exceptions noted.

                               DFAS Cleveland technicians did not record their                Management agreed with the exception that
                               initials and review dates for 1 of 24 Thrift                   annotations evidencing technician review for one
                               Savings Plan (TSP) error reports inspected for                 TSP report were not present. In order to remediate
   2010            N/A         testing.                                              Closed   this exception, management will ensure technicians
                                                                                              annotate the TSP reports, as required. Additionally,
                                                                                              management believes this is an isolated incident and
                                                                                              the control is working as intended.

                               DFAS Saufley did not sufficiently document the                 Management agreed that existing interface
                               required destination for 44 of 45 sampled                      documentation does not consistently identify
                               outgoing file transfers. Specifically, DFAS                    specific technical destinations (e.g., IP address,
                               Saufley was unable to provide evidence of the                  remote host name) as reflected in the DCPS table
                               intended destination (i.e., DCPS Action Request                data provided for audit review. Direct traceability
                               or e-mail) for 18 of the 45 outgoing file transfers            from a technical destination in a table entry to an
                               selected for testing. Additionally, the destination            originating customer request has not been a DCPS
                               within the documentation provided by the client                system requirement to date. While the DCPS
   2010            N/A         did not match the destination within the file         Closed   project does monitor production jobs to ensure
                               transfer table for 26 of the remaining outgoing                successful completion of outgoing file transfers,
                               file transfers selected for testing.                           customers/end users of the data historically provide
                                                                                              additional control measures to ensure receipt. Full
                                                                                              remediation - to include changes in DCPS transfer
                                                                                              table formats and direct customer contacts/reviews
                                                                                              for the approx 6,800 physical file transfers in this
                                                                                              interface population - would constitute a significant
                                                                                              new workload and investment of DFAS resources.




                                                                         16
	
 Original
Fiscal Year
              Recommendation                                                           Open/
  Finding                                      Finding Description                                            Management Response
                 Number1                                                               Closed
   Was
 Reported
                                 DFAS Cleveland did not reconcile the 592                       Management agreed with the exception. However,
                                 checklist to the Report of Withholdings and                    the exception was found and corrected prior to the
                                 Contributions for Health Benefits, Life Insurance,             SAS 70 review by adding a formula to the checklist.
                                 and Retirement Reports for 1 of 24 592                Closed   No further problems were identified after that time,
                                 reconciliations. However, the unreconciled items               and the 592 certification was in balance. To correct
                                 did balance, and as a result, the 592 certification            the exception, DFAS Cleveland is developing
   2010            N/A           was correct.                                                   individual spreadsheets and eliminating the monthly
                                                                                                carry-forward process.
                                 DFAS Cleveland did not reconcile the 592
                                 checklist to the TSP Certification of Transfer for    Closed
                                 6 of 24 592 reconciliations. However, the
                                 unreconciled items did balance, and as a result,
                                 the 592 certification was correct.

                                 DFAS Saufley did not clearly distinguish                       This is a PIO and not a finding; therefore, no
   2010       Technical Report   transfers from separations on the separations         Closed   management responses were required
                                 report.

                                 DFAS Saufley did not have a process to establish               This is a PIO and not a finding; therefore, no
   2010       Technical Report   criteria for determining the criticality of DCPS      Closed   management responses were required
                                 interfaces.

                                 DFAS Cleveland’s payroll technicians did not                   This is a PIO and not a finding; therefore, no
   2010       Technical Report   start with blank 592 reconciliation checklists each   Closed   management responses were required
                                 pay period.

                                 DFAS Indianapolis did not require supervisor                   This is a PIO and not a finding; therefore, no
   2010       Technical Report   sign-off evidencing supervisor review of the TSP      Closed   management responses were required
                                 error report.

                                 DFAS Indianapolis did not require annotations on               This is a PIO and not a finding; therefore, no
                                 the Duplicate Social Security Number report                    management responses were required
   2010       Technical Report                                                         Closed
                                 regarding issues requiring payroll technician
                                 follow-up action.


                                                                           17
	
 Original
Fiscal Year
              Recommendation                                                         Open/
  Finding                                    Finding Description                                           Management Response
                 Number1                                                             Closed
   Was
 Reported
                               DFAS management did not implement standard                     The DFAS Director agreed with the
                               operating procedures to include payroll input                  recommendations and stated that DFAS would
                               processing procedures. Specifically, DFAS                      provide guidance and procedures for reviews and
                               Indianapolis did not document procedures for                   follow-ups for the Personnel Interface Message
                               performing reviews and related follow-ups for the              Report by October 1, 2010, and that it had
   2009            E.4         Personnel Interface Message Report and the New        Closed   implemented supervisory reviews of the New Hires
                               Hire Suspense Report. In addition, at DFAS                     report.
                               Cleveland, the New Hire Suspense Report
                               desktop procedures did not include review
                               procedures and did not require supervisory
                               review of the report.

                               The DFAS and Defense Information System                        The DFAS Director agreed with the
                               Agency’s certification and accreditation packages              recommendations and stated that DFAS included
                               did not contain specific supporting                            validation documentation to the DCPS certification
                               documentation for each applicable DoD                          and accreditation package on July 13, 2010.
                               Instruction 8500.2 control. According to
                               National Institute of Standards and Technology
   2009           A.1.a        Special Publication 800-37, the security              Closed
                               accreditation package should include the results
                               of the security certification and provide the
                               authorizing official with the essential information
                               needed to make a credible, risk-based decision on
                               whether to authorize operation of the information
                               system.




                                                                        18
	
                                     Glossary
	
Application - software program that performs a specific function directly for a user and
can be executed without access to system control, monitoring, or administrative
privileges. Examples include office automation, electronic mail, Web services, and
major functional or mission software programs.

Availability - timely, reliable access to data and information services for authorized
users.

Confidentiality - assurance that information is not disclosed to unauthorized entities or
processes.

Data - representation of facts, concepts, or instructions in a formalized manner suitable
for communication, interpretation, or processing by humans or by automatic means. Any
representations, such as characters or analog quantities, to which meaning is or might be
assigned.

Information Assurance (IA) - measures that protect and defend information and
information systems by ensuring their availability, integrity, authentication,
confidentiality, and nonrepudiation. This includes providing for restoration of
information systems by incorporating protection, detection, and reaction capabilities.

Integrity - quality of an information system reflecting the logical correctness and
reliability of the operating system; the logical completeness of the hardware and software
implementing the protection mechanisms; and the consistency of the data structures and
occurrence of the stored data. Note that in a formal security mode, integrity is interpreted
more narrowly to mean protection against unauthorized modification or destruction of
information.

Nonrepudiation - assurance that the sender of data receives proof of delivery and the
recipient receives proof of the sender's identity, so neither can later deny having
processed the data.

Sensitive Information - information for which the loss, misuse, unauthorized access to,
or modification of could adversely affect the national interest or the conduct of Federal
programs, or the privacy to which individuals are entitled, but which has not been
specifically authorized under criteria established by Executive order or an Act of
Congress to be kept secret in the interest of national defense or foreign policy. Examples
of sensitive information include, but are not limited to, information in DOD payroll,
finance, logistics, and personnel management systems.




                                            19
	
Defense Finance and Accounting Service Comments 




                       DEFENSE FINANCE AND ACCOUNTING SERVICE
                                     ARLINGTON
                                      1851 SOUTH BELL STREET
                                     ARLINGTON , VA 22240· 5291




      DFAS-ZT

      MEMORANDUM F OR THE DOD INSPECTOR GENERAL

      SUBJECT: Defense Finance and Accmmting Service Needs to Strengthen Procedmes to Comply
               with the Federal Financial Management Improvement Act (Project No. D20ll­
               DOOOFB-0116.001)


           Attached are management comme~ed completion dates
      for subject report. My point of contact is- - - -




                                                   Jerry S. Hinton
                                                   Ditector, Information and Technology

      Attachment:
      As stated




                                              W\IIW.dfas.mil
                                      Your Financial Partner @   War~




                                                                 20
Defense Finance and Accounting Service Comments 





                 Defense Finance and Accounting Service Need s to Strengthen Procedures to
                     Comply with the Federal Financial Management lmpt•onment Act
                                   (Project No. D2011- DOOOFB-Oll6.00l )



      We recommend that the Director. Defense Finance and Accounting Service:

      A. I. Perfom1 an annual review of the Defense Civilian Pay System. as required by
      Office of Management and Budget Circu lar No. A-1 27, to:

      a. Determine which Blue Book requirements apply to the Defense Civilian Pay
      Syst~m .


      b. Detenuine which of the Blue Book requiremo:nts that apply to the Def.:nse
      Civilian Pay System. cannot be perfonm:d.

      Management Response: Concur

      DCPS System/Functional Managers will conduct a Self Assessment Review and identify
      applicable requirements. Estimated Completion Date: August 3 1. 20 12

      A.2. Develop a remediation plan to address the r<:quir<:ments that Defense Civilian Pay
      System cannot perfonn.

      Managcml'nf Response: lfDCPS is found not to be compliant. the System Manager will
      identify requir.!d corrective actions and develop a remediation plan to bring DCPS into
      s ubstantial compliance. Estinmted Completion Date: September 30. 2012.




                                                                  21
